                    February 24, 2000


                    DEBORAH K. WILLHITE,

                    SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS

                     and PUBLIC POLICY

                    SUBJECT:	 Allegations of Abuse of Postalwatch.org Web
                              Link (Report Number CI-MA-00-001)

                    This management advisory report highlights the results of a
                    review we conducted at the request of the senior advisor to
                    the postmaster general (Project Number 99CS007CI000).
                    In July 1999 the senior advisor to the postmaster general
                    reported receipt of a complaint from a representative of
                    Postal Watch, alleging that postal employees were
                    repeatedly visiting the Postal Watch website, causing
                    disruption to the website.

Results in Brief	   This review revealed that in at least two locations, the
                    United States Postal Service Government Relations website
                    has a direct link to an external, non-Postal Service website
                    of an organization named Postal Watch. As a result of this
                    link between the Government Relations website and Postal
                    Watch, over 1000 visits per day were made by Postal
                    Service employees to the Postal Watch website. We
                    suggest that steps be taken to remove the links from the
                    web page in question to Postal Watch. Management
                    disagreed with the contents of the report and concluded that
                    the report provided no evidence of “abuse or excessive
                    usage by postal employees.” We do not agree with
                    management’s decision to retain the link to Postalwatch.org
                    and may reexamine this issue as part of a broader review of
                    postal Internet policies.

Background	         The Postal Service maintains websites on the Internet for
                    public access, www.Postal Service.gov and www.Postal
                    Service.com; and the Postal Service Intranet for employees,
                    contractors and other authorized users, www.blue.Postal
                    Service.gov. The purpose of the websites is to provide a
Error! Not a valid link.                 Error! Not a valid link.


                                 readily available access point for customers and users to
                                 obtain information regarding the Postal Service and its
                                 services. These services are designed to promote products
                                 and services offered by the Postal Service and to increase
                                 Postal Service revenue.

                                 These websites also offer a limited number of direct links to
                                 non-Postal Service websites for its users. One of these
                                 links involves Postal Watch, www.postalwatch.org
                                 (Appendix A). The Postal Watch website describes itself as
                                 ". . . the official website dedicated to monitoring and
                                 challenging the unwarranted and damaging regulatory
                                 actions of the United States Postal Service.”

Objective, Scope, and            The purpose of this review was to determine whether Postal
Methodology                      Service employees were excessively accessing the Postal
                                 Watch website via the Postal Service Intranet. To conduct
                                 the review, we interviewed employees of the Postal Service
                                 National Information Systems Support Center, Raleigh,
                                 North Carolina. We also analyzed proxy firewall logs for the
                                 period of June 30 to July 31, 1999.

                                 This review was conducted from July 1999 through
                                 February 2000 in accordance with the President’s Council
                                 on Integrity and Efficiency, Quality Standards for
                                 Inspections. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

Observations                     This review disclosed that from June 30 to July 31, 1999,
                                 the Postal Watch website was accessed approximately
                                 31,000 times from Postal Service.gov hosts, averaging over
                                 1000 visits per day by postal employees. At least two
                                 Postal Service webpages, http://blue.Postal
                                 Service.gov/grweb/main.htm (Appendix B), and
                                 http://blue.Postal Service.gov/grweb/ (Appendix C),
                                 operated by Postal Service Government Relations,
                                 maintained direct links to Postal Watch.1 These links
                                 provide an easy way for postal employees to find and
                                 access the Postal Watch website. While any postal

1
  There is a multitude of other Postal Service.gov and Postal Service.com websites. Many of these websites maintain
links to other Postal Service and non-Postal Service websites. The precise number of Postal Service websites with
links to Postal Watch could not be determined.




                                                        2
                                             Restricted Information
Error! Not a valid link.         Error! Not a valid link.


                           employee with postal approved Internet access could find
                           and visit the Postal Watch website, the public display of this
                           website on the Postal Service Government Relations web
                           page could be viewed as an encouragement for postal
                           employees to visit the website.

Suggestion                 We suggest that the senior vice president, Government
                           Relations and Public Policy, should remove all direct links
                           from the Postal Service Government Relations website to
                           the website maintained by Postal Watch.

Management’s               Management disagreed with the contents of this report and
Comments                   concluded that the report provided no evidence of “abuse or
                           excessive usage by postal employees”. As such,
                           management will take no action to remove the direct link to
                           postalwatch.org. Management stated that without a “legal
                           or professional restriction” policy prohibiting Postal Service
                           employees from accessing non-Postal Service websites, the
                           Office of Government Relations and Public Policy intends to
                           maintain the current direct links to postalwatch.org. They
                           believe the links improve the performance of the Postal
                           Service and allow the Postal Service to respond
                           constructively and appropriately to misleading information.

                           Management’s verbatim comments are contained in
                           Appendix D.

Evaluation of              We disagree that the report did not provide evidence of
Management’s               abuse or excessive usage by postal employees. We
Comments                   believe that over 1,000 accesses per day by postal
                           employees is excessive. Further, eliminating the direct link
                           to Postal Watch will not prevent postal employees, who so
                           desire, from accessing the website. Additionally, Postal
                           Watch was the only website whose purpose is to monitor
                           and challenge the “unwarranted and damaging regulatory
                           actions of the United States Postal Service” to which the
                           Postal Service provided a link on its websites.

                           We do not agree with management’s decision to retain the
                           link to Postalwatch.org. The Postal Service operates one of
                           the largest Intranets in the federal government. Any link of
                           the postal Intranet to an external website increases the
                           potential Internet traffic between the Postal Service and the
                           external website. Therefore, we may reexamine this issue
                           as part of a broader review of postal Internet policies.


                                                3
                                     Restricted Information
Error! Not a valid link.         Error! Not a valid link.




                           We appreciate the cooperation and courtesies provided by
                           your staff during the review. If you have any questions,
                           please contact                 ,              , or me at (703)
                           248-2300.


                           //signed//
                           Norman B. Hancock
                           Assistant Inspector General
                             for Customer

                           Attachment

                           cc:	 Richard D. Weirich
                                Larry M. Speakes
                                John R. Gunnels




                                                4
                                     Restricted Information
Error! Not a valid link.          Error! Not a valid link.



                           APPENDIX A. www.postalwatch.org




                                                 5
                                      Restricted Information
Error! Not a valid link.    Error! Not a valid link.



              APPENDIX B. http://blue.usps.gov/grweb/main.htm




                                           6
                                Restricted Information
Error! Not a valid link.        Error! Not a valid link.



                      APPENDIX C. http://blue.usps.gov/grweb




                                               7
                                    Restricted Information
Error! Not a valid link.      Error! Not a valid link.



                      APPENDIX D. Management’s Comments




                                             8
                                  Restricted Information
Error! Not a valid link.   Error! Not a valid link.




Major Contributors to
This Report:




                                          9
                               Restricted Information
